@ BECKER GALLAGHER Downa J. Wotr, J.D.

Briefs and Records Juute A. KERSHNER, J.D.

CERTIFICATE OF SERVICE

I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Suggestion of
Mootness in 19-688, Wells Fargo & Co., et al. v. City of
Miami, Florida, were sent via Three Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Three Day Service and e-mail to the following parties
listed below, this 3rd day of February, 2020:

Neal Kumar Katyal

Hogan Lovells US LLP

555 Thirteenth St., N.W.
Washington, DC 20004

(202) 637-5528

neal. katyal@hoganlovells.com

Counsel for Petitioners

Robert S. Peck
Counsel of Record
Center for Constitutional Litigation, P.C.
455 Massachusetts Avenue, NW
Suite 152
Washington, DC 20001
(202) 944-2874
robert.peck@cclfirm.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED 8790 Governor's Hill Drive Franklin Square

Suite 102 1300 | Street, NW, Suite 400E

woww.beckergallagher.com Cincinnati, Ohio 45249 Washington, DC 20005
All parties required to be served have been served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 3, 2020.

 

Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249

(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date: oh 3 Pie
Dal
\GG_ IE
Notary Public

[seal]

 
 

imission Expires
y 24, 2028

  
